                                  AR 08-001 A




FEDERAL TRADE COMMISSION
   Audited Financial Statements
      For Fiscal Year 2007




OFFICE OF INSPECTOR GENERAL

       Management Letter
                                          U uited States of America

                                     FEDERAL TRADE COMMISSION
                                              WASHINGTON, D.C. 20580



Office of Inspector General

                                                             January 29, 2008


 MEMORANDUM

           TO:        Deborah Platt Majoras
                      Chairman

      FROM:           John M. Seeba
                      Inspector General

 SUBJECT:             Transmittal of the OIG FY 2007 Management Letter

         When performing an audit of an agency's major financial systems and accounting
 processes, auditors often detect deficiencies in internal controls that do not rise to a level
 of seriousness to be reported in the auditor's opinion. These findings are communicated
 to the auditee in a management letter. Attached is a copy of the FY 2007 Financial
 Statement Management Letter that reports on such findings.

 Results in Brief

        Our audit testing for fiscal year 2007 noted significant management efforts
 throughout the FTC that have addressed previously reported weaknesses. As of
 November 2007, FTC had taken actions to close 6 of the 8 open recommendations from
 our audit of the agency's 2006 financial statement.

         The Redress Administration Office, the Financial Management Office, and the
 Bureau of Competition all established policies and procedures that addressed and cleared
 prior year concerns. In our current year testing, no exceptions were found in these areas,
 and the OIG considers the following comments closed:

                •     RAO's year-end budget review of redress cases was incomplete
                •     Accuracy of accounts payable
                •     Overstatement of undelivered orders
                •     Performance measures not inclusive
                •     Reporting requirements of strategic sourcing not met
                •     RAO's year-end budget review of all redress cases understated the ordered
                      amount
Two areas of concern remain:
          • Quality assurance review of financial statements:

               The quality control policies and procedures have improved every year
               since FY 2003 when the condition was noted by the OIG. The remaining
               area of concern is final proofreading of year-end financial statements.

           •   Parking benefits not accurately reported on W-2s:

               During our current year audit, the OIG noted that the procedures put into
               place were properly designed to calculate taxable parking benefits. OIG
               will consider this comment closed when we confirm that the W-2s issued
               in January 2008 were correctly calculated.

One new recommendation was made:
             Closing Procedures Need Improvement:

               This recommendation addresses the recording of FY 2006 year-end journal
               entries. We recommend that FMO establish policies and procedures to
               ensure that year-end journal entries are promptly recorded so that the
               subsequent year's beginning balances are fairly stated.

Agency Comments

In commenting on a draft of this report, the Financial Management Office generally
eoncurred with our reeommendations and diseussed proposed implementation actions to
address our concerns, and also actions already taken. The complete comments from the
Financial Management Office and the Human Resources Management Office are
reprinted at the end of this report.

We acknowledge and appreciate the cooperation and assistanee provided by FTC
management and staff during our audit of FTC's fiscal year 2007 financial statements. If
you have any questions about this report, I am available to discuss the report with you at
your convemence.




                                            2
                                 CONTENTS



                                                                             Page

FOLLOW-UP ON PRIOR YEAR FINDINGS                                                  I


     QUALITY ASSURANCE REVIEW OF FINANCIAL STATEMENTS                             I
     PARKING BENEFITS NOT ACCURATELY REPORTED ON W-2's                            1
     RAO's YEAR-END BUDGET REVIEW OF REDRESS CASES WAS INCOMPLETE                 2
     ACCURACY OF ACCOUNTS PAYABLE                                                 3
     OVERSTATEMENT OF UNDELIVERED ORDERS                                          4
     PERFORMANCE MEASURES NOT INCLUSIVE                                           5
     REPORTING REQUIREMENTS OF STRATEGIC SOURCING NOT MET                         6
     RAO's YEAR-END BUDGET REVIEW OF ALL REDRESS CASES UNDERSTATED TilE ORDERED
       AMOUNT                                                                     7


CURRENT YEAR FINDINGS                                                             7

     CLOSING PROCEDURES NEED IMPROVEMENT                                          7


STATUS OF RECOMMENDATIONS                                                         8

     TABLE 1: RECOMMENDATIONS FROM 2005 AUDIT                                     8
     TABLE 2: RECOMMENDATIONS FROM 2006 AUDIT   --------------8
     TABLE 3: RECOMMENDATION FROM 2007 AUDIT                                      8


COMMENTS FROM THE FINANCIAL MANAGEMENT OFFICE                                     9



COMMENTS FROM THE HUMAN RESOURCES MANAGEMENT OFFICE                           10
                                Federal Trade Commission
                      Financial Statement Audit for Fiscal Year 2007
                                          As of November 14, 2007

                                    Follow-up on Prior Year Findings

Quality Assurance Review of Financial Statements

        During its review of the FY 2003 finaneial statement paekage (Management's Diseussion
and Analysis, statements and notes), the OIG identified several errors that are common in such
large and complex products. These errors included misspelled words, misplaced information in
the notes, and formatting errors. Between FY 2003 and FY 2007 several procedural steps were
undertaken by the Chief Financial Officer to address this issue, resulting in an improved final
product. However, our review continued to find errors in the final product.

        In 2007, FMO established a quality review document that was used to review the
financial statements. The OIG believes that this document has helped improve the financial
statements preparation process. However during our review of the agency's financial statements
we continued to find a number of errors including footnotes and exhibits that did not tie to the
face of the financial statements, prior year numbers that were incorrect, and formatting, footing,
and typographical errors.

        The OIG will continue to monitor this process.

Parking Benefits Not Accurately Reported on W-2's

         Parking provided to an employee at or near the employer's place of business is considered
a qualified transportation fringe benefit. Internal Revenue Service (IRS) regulations permit
employees provided with this benefit to exclude it from their income, up to a certain monthly
limit. I If the parking benefit value exceeds this limit, the excess must be included in the
employee's income and reported on his/her IRS form W-2. The FTC values non-reserved spaces
at the IRS benefit limit, resulting in no tax consequences for those employees parking in non-
reserved spaces. However, reserved spots do carry tax consequences.

        For calendar years 2003 and 2004, the OIG identified errors in the computation and
reporting of the parking benefit.




I The IRS limit was $ I95 in 2004 and $200 in 2005



                                                                                      AR 08-001A
      In FY 2004 the OIG recommended that HRMO establish a quality control process
whereby:

           •   the names of benefit recipients are verified withASO quarterly, and
           •   calculations establishing tax liabilities are cheeked by an individual other than the
               person performing the calculation to ensure that computation errors are identified
               and corrected before W-2's are prepared.

        On June 21, 2005, management informed the OIG that the FY 2004 recommendation had
been implemented. HRMO management provided the OIG with a set of procedures for the
identification of beneficiaries, calculation of benefit totals and quality assurance checks.
Notwithstanding these efforts, the OIG continued to find errors in the computation of taxable
parking benefits in FY 2005 and 2006.

       In his August 13,2007, response to the OIG, the Executive Director has completed the
following actions:

           •   A comprehensive review has been completed of all employees subject to the
               taxable parking benefit for the last three years. Where a discrepancy was
               uncovered, employees were notified.
           •   A review of pay period I through 17 for tax year 2007 has been initiated with the
               agency's payroll provider.
           •   The standard operating and reporting procedures have been updated to include a
               quarterly review by FMO.
           •   A template memo has been developed to notify new employees subject to the
               taxable parking benefit and to notify existing employees of a change to their
               taxable parking benefit.

       During our current year audit the OIG reviewed parking benefits for the first 16 pay
periods of2007. The OIG noted that the procedures put into place during the year were properly
designed to caleulate the taxable parking benefit tor the year.

       The OIG will consider this comment closed after we confirm that the W-2s issued in
January 2008 are correctly calculated.

RAO's Year-End Budget Review of Redress Cases Was Incomplete

       The Redress Administration Office (RAO) is located in the Bureau of Consumer
Protection's (BCP) Division of Planning and Information. The RAO is responsible tor the
oversight and tracking of all judgments, collections and claims disbursements in BCP, including
consumer redress and civil penalties.




                                                 2
                                                                                      AR 08-001A
        When FMO compared its FY 2005 cash receipt records for FTC cases with RAO's list of
FY 2005 judgment activity, FMO noted a discrepancy. Specifically, FMO records indicated that
the agency received a payment against a FY 2005 judgment that was not identified on RAO's
report. As this report is the primary source document for BCP activity detailed on the audited
financial statements, FMO immediately questioned the accuracy of the various totals. The OIG
agreed with this concern and brought this to the attention of RAO officials. RAO reviewed its
files and agreed that this case had been inadvertently omitted. In addition, RAO identified three
additional redress cases they had also omitted. These four redress cases represented
approximately $ I9.5 million in additional redress orders.

       These omissions led the OIG to review controls in place to identify the universe of
reported cases. This is especially important as these same systems are relied upon to report
performance information to Congress, the Office and Management and Budget, and the agency's
stakeholders.

        To address this weakness, RAO developed an automated database to track all redress
cases. This new system amalgamated computer data from all offices within the FTC and existing
reports submitted by redress contractors. According to RAO officials, the new system includes
triggers signifying that RAO needs specific information (i.e. annual fraudulent sales for GPRA
reports). Staff expects that the new database will reduce reliance on manual input and will
achieve more accurate and timely results.

       In FY 2006 the OIG reviewed redress cases during the year and did not find any redress
cases were missed. In addition, in FY 2007 the new redress database was fully implemented.
No exceptions were noted during the OIG's review ofFY 2007 redress cases.

       The OIG considers this comment closed.

Accuracy of Accounts Payable

        During the year, accounts payable is recorded based on receipt of an invoice, a completed
receiving report, or confirmation from a COTR. Annually, FMO sends out a request for
confirmation of unfilled orders and expenditures for all undelivered orders greater then $50,000
to determine if any additional accrual or expenditures need to be recorded.

        In FY 2006, the OIG reviewed undelivered orders and the detailed subsidiary of accounts
payable. During the OIG's review of undelivered orders, the OIG discovered an additional
accrual of approximately $426,000. This accrual was not recorded because the COTR failed to
respond to FMO's request for confirmation of unfilled customer orders and expenditures. In
addition, during the OIG review of the accounts payable subsidiary ledger, the OIG noted two
accruals that were overstated by approximately $1.1 million. This overstatement was due to an
error by a staff accountant recording the accruals in the accounting software. After the OIG
discussed the overstatements with FMO, adjustments were made to the financial statements.


                                                3
                                                                                    AR 08-001A
        OIG recommended that:

            •   FMO establish follow-up procedures to ensure that COTR eonfinnations are
                received in a timely manner,
            •   Training should be provided to COTR's to ensure that they understand what is
                required by the confirmation of unfilled customer orders and expenditures,
            •   FMO should establish a review process of accruals posted to the general ledger.

       During our current year testing of accounts payable, FMO obtained documentation on all
COTR confirmations. In addition, FMO noted that the agency maintains an on-line training
course tor all COTR's. No exceptions were noted during testing.

        The OIG considers this comment closed.

Overstatement of Undelivered Orders

        Obligations represent the amount of orders placed, contracts awarded, services received,
and similar transactions during a given period that will require payment during the same or future
period. Undelivered orders are obligations that are awaiting the receipt of the goods or services
ordered before funds are paid. During the normal course of business, officials may cancel an
obligation (i.e. undelivered order) that is no longer needed. An example of a service frequently
canceled after an obligation has been established is travel. Once canceled, the funds may be used
for other purposes, subject to appropriation and reprogramming limitations.

        Periodically, and at the end of each fiscal year, federal agencies are required to reconcile
their obligation controlling accounts to the total amount posted to supporting records. In
addition, program and support offices are to review obligations to determine whether the
amounts obligated on the books are, in fact, valid commitments of funds.

       In the absence of adequate system controls to perform deobligation of invalid or
unneeded orders, obligations will both accumulate and remain open for long periods. Because
funds for these obligations originated from a "no-year" appropriation, these funds are needlessly
encumbered when they could be deobligated for re-programming and re-apportionment.

        The FY 2006 financial statement audit identified undelivered order balances totaling
$487,130 for orders between FY 2001 and FY 2005 that should have been deobligated by
September 30, 2006. Upon discovery, the Financial Management Office made the appropriate
adjustments to the financial statements. In addition, the OlG found that no detail review was
performed on outstanding undelivered orders balances identified within FY 200 I ($231,570) and
FY 2002 ($338,783). Due to the length of time that these remaining undelivered orders have
been open, it is doubtful that they still represent legitimate obligations awaiting delivery of goods
or services.


                                                  4
                                                                                        AR 08-001A
        The OfG recommended that the FMO provide a list of open obligations for FY 2001
through FY 2006 to the COTRs to review for deobligations. Periodic reviews of open
obligations should continue to be performed using the same approach.

        In FY 2007, the chief acquisition officer established procedures to review all open
obligations for FY 2001 through FY 2006. The chief acquisition officer contacted all COTR's to
determine the status of the obligations. For all obligations where the contract was completed, a
letter was sent to the contractor stipulating that funds under the contract will be deobligated in 30
days and any invoice unpaid must be sent to the agency by this time period. At September 30,
2007, the agency's balanee in undelivered orders for FY 2001 and FY2002 has been reduced to
zero. In addition the balance for FY 2003's undelivered orders decreased from approximately
$500,000 at September 30, 2006 to $80,000 as of September 30,2007. The OIG believes that
procedures put into place are properly designed to review the status of undelivered orders and
determine when undelivered orders should be deobligated.

       The OIG considers this comment closed.

Performanee Measures not Inclusive

        Pursuant to the Government Performance and Results Act of 1993, the OIG conducts a
review of the agency's performance aetivity. The objective of the review is to determine whether
there are systems in place to accumulate performanee related information and that the data
included in the agency's Performance and Accountability Report is accurate.

         During the OIG's review of the performance measures, we noted that one of the
performance measures prepared by the Bureau of Competition, "2.3.3 Prevent consumer injury
through education by tracking the number of hits on the FTC antitrust web page," was inaccurate.
The fiscal year 2006 target for this measure was 10 million hits. The agency accumulated this
data for the period of October 2005 through February 2006 and it amounted to approximately
10.6 million hits. This five-month period was then recorded as the yearly sum of hits on the FTC
antitrust website for measurement of whether the agency met their goal of 10 million hits.
However, this calculation does not take into account hits on the FTC's antitrust website for the
months of March 2006 through September 2006. FMO stated that during the five month period
there was an unusual amount of activity on the agency's antitrust website due to the agency's
activities in the real estate and petroleum area and therefore believed that 10.6 million hits on the
antitrust website was a more accurate figure. However, the performance measure in the PAR did
not provide an explanation on why the agency elected to use a five-month period.




                                                  5
                                                                                       AR08-001A
       The OIG recommended that when performance measures are shown they should be
representative of a 12 full month period. When 12 months of data is not maintained, a rational
method should be used to extrapolate the data to a 12-month period and that when activity for a
performance measure increases dramatically that an explanation of what occurred should be
included.

        During our review of performance measures for the FY 2007 audit we noted that all
performance measures were for a l2-month period and included explanations for variances from
the prior year.

       The OlG considers this comment closed.

Reporting Requirements of Strategic Sourcing Not Met

        OMB issued a memorandum on May 20, 2005, defining how agencies should implement
strategic sourcing. Strategic sourcing is the collaborative and structured process of critically
analyzing an organization's spending and using this information to make business decisions
about acquiring commodities and services more effectively and efficiently. This process helps
agencies optimize performance, minimize price, increase achievement of socio-economic
acquisition goals, evaluate total life cycle management costs, improve vendor access to business
opportunities, and otherwise increase the value of each dollar spent. Each agency's Chief
Acquisition Officer (CAO), CFO, and ChiefInformation Officer (ClO) are responsible for
development and implementation of the agency's strategic sourcing effort.

As part of the strategic sourcing initiative, the CAO has established a program for strategic
sourcing. This program includes use of the Economy Act to purchase office supplies and
Government Wide Acquisition Contract to purchase hardware and software products and IT
services.

       Beginning in January 2006, OMB required the CAO to report annually to the Office of
Federal Procurement Policy (OFPP), regarding at a minimum, reductions in the prices of goods
and services, reductions in the cost of doing business, improvements in performance, and
changes in achievement of socio-economic acquisition goals at the prime contract and, if possible
the subcontract level. When the OIG asked for a copy of this annual report, the CAO stated that
no report was filed with OFPP.

        In FY 2006, the OlG recommended that beginning with FY 2006, that CAO file annual
reports with the OFPP to comply with OMB's strategic sourcing initiative. In FY 2007, the CAO
noted that the agency is part of the Small Agency Council. The Small Agency Council reports
annually to OFPP on strategic sourcing for all agencies that are members of the Council. Since
the agency is a member of this Council it meets the reporting requirements ofOMB.

       The OIG considers this comment closed.


                                                6
                                                                                     AR 08-001A
RAO's Year-End Budget Review of all Redress Cases Understated the Ordered Amount

        Through the OIG review ofRAO's FY 2006 Aeeomplishment report, we determined that
several eases were listed with a judgment amount as "to be determined." Most of these eases
were eonsidered "to be determined" beeause the defendant had to liquidate assets and pay the
ageney the proeeeds from the sale. In many instances, the agency rcecives millions of dollars
upon liquidation of these assets.

        However, RAO's aeeomplishment report does not reflect the value of assets, sueh as
homes, automobiles, boats, airplanes, etc, prior to being sold. These cases are reported as "to be
determined." These assets have an appraised value for tax purposes that RAO can use to provide
an estimate of the potential amount that can be recovered when sold. By not reporting the
appraised value, RAO reports do not show millions of dollars of accomplishment achieved by the
agency.

        In FY 2006, the OIG recommended that RAO modify its accomplishment reports to
include the appraised value instead of "to be determined" to properly reflect the accomplishments
of the agency.

       In FY 2007, RAO's accomplishment report was updated to include estimates of the
appraised value of assets on all judgments. FMO used this to properly reflect the judgment
receivable for the fiscal year.

       The OIG considers this comment closed.

                                      Current Year Findings

Closing Procedures Need Improvement

       At fiscal year-end, FMO performs procedures to close the agency's general ledger for the
year and prepare financial statements. FMO closes their general ledger by the first week of
October. Historically after the general ledger is closed, it has been discovered that journal
adjustments to the general ledger are needed to properly reflect the financial statements of the
agency. These entries are tracked outside of the general ledger; however they are used to adjust
the general ledger to the audited financial statements. These adjustments have to be entered into
the general ledger in the subsequent fiseal year in order for beginning balances to be fairly stated.

        During our current year audit we discovered that adjustments from fiscal year 2006's
preparation of the financial statements were not recorded in the general ledger during fiscal year
2007. Due to this fact, the OIG recommended an adjustment of approximately $400,000 to
reconcile cumulative results of operations as part of the fiscal year 2007 financial statement
preparation process.


                                                  7
                                                                                        AR 08-001A
        We reeommend that FMO establish policies and procedures to ensure that all journal
entries made as part of the prior year financial statement preparation process are properly
retlected in the current fiscal year records.

                                 Status of Recommendations

        The following tables show the status of the Federal Trade Commission's (FTC)
recommendations related to opportunities for improvements in FTC's internal control over
accounting and financial reporting. Tables I and 2 reflect the status of OIG recommendations as
of the end of the 2006 audit.? Table 3 shows the OIG recommendation from the current year's
audit.

       As of November 2007, FTC had taken actions to elose 6 of the 8 open recommendations
from our audits of the agency's 2005 and 2006 financial statements.

                                                                               Status of
Table 1: Recommendations from 2005 Audit
                                                                           recommendations
                                                                            Closed     Open
I. Quality Assuranee Review of Finaneial Statements                                      X
2. Parking Benefits Not Aecurately Reported on W-2s                                      X
3. RAO's Year-End Budget Review of Redress Cases Was Ineomplete                X

                                                                               Status of
Table 2: Recommendations from 2006 Audit
                                                                           reeommendations
                                                                            Closed     Open
4. Accuracy of Accounts Payable                                                X
5. Overstatement of Undelivered Orders                                         X
6. Performance Measures not Inelusive                                         X
7. Reporting Requirements of Strategie Sourcing Not Met                        X
8. RAO's Year-End Budget Review of all Redress Cases Understated
                                                                              X
   the Ordered Amount

                                                                               Status of
Table 3: Recommendation from 2007 Audit
                                                                           recommendation
                                                                            Closed     Open
9. Closing Proeedures Need Improvement                                                   X


2 AR-07-00IA Financial Statement Auditfor Fiscal Year 2006, Follow Up ofPrior Year
Findings, Management Letter

                                               8
                                                                                   AR 08-001 A
        Comments from the Financial Management Office




To:         John   Sema~ Inspector    Genual

Frmn:       Steven A. Fisher. Chief FinancwOfl'ker
Stlbj~f:    RiO    r ~ to;      Draft of FY 2007 Management Letter


We reviewed the draft report ofIGfiscal year (FY) 2007                     Letter which
eccoeepemes the. Financial Statement ~>\uditreportfbr Fiscal Year 2007: O\R-OS-OO1),
I am pleased that the IG was able to dose SIX of e'lgITt open recomnseadaticns mat were
identified in previous audits. Regarding the two prior year de:tm: thaI: remain open:

        \Ve agree that additional impllJ<,,/entents can be implemented relative to tbe
        Fin:mcial Management Office s (EvfO) quality assurance review process of the
        fimmci:Rl statements. We appreciate the eckacwledgeecenr of our efforts to
        im.prove the process \%i:tich address this fi.nding that was. originally reported in ¥'{
        2003. As noted in the zeenagesueetIettes, in IT 2007 the F}A:O developed step-
        by-step written procedures: for ccenpleting the cwnpilatiOll and. iesemal review of
        the finat:u::ial statements. During FY 2008 and !:hereafter, the FMO will closely
        monitor compliance Thiin its estahlished procedures to better ensure errors are
        detected as part of the final quality assurance review.

        Relative to the finding on the proper reporting ofparkmg benefits, we believe that
        the- corrective actions implemented:in FY 2007 as described in the management
        letter adequately address the concern ov-er accuracy of reporting parking benefits.
        The Haman Resource Mana)i;muent Office eed FMO will continue to cLosely
        moniiter the accurac'j'of~gparl:.iug benefits en employees' IRS funn"W-2.

In regards to the finding and new recommendation tber pertain to year -eed clos:ing
procedures, we generally concur. \l;1111e we nave Jilieady established detailed procedures
for finaeceal statentent: preparation and the year-end dnring processes, we concur that
such procedures should explicitly require the verificanon that any prim veer-end
adjustment'S (that were made suMequent to dcsing the geeeref Jedger but prior to i.ssuin.g
the financial statements) were: sub:requeutly posted to the core financial system and are
properly aecaenred for 'in the curresrr y'&1T compilation.

Thank you fur the opportunity to review and comment on the draft report.




                                               9
                                                                                                   AR 08-001A
                 Comments from the Human Resources Management Office



                                                           UNITt'D STAIFS   or   AMERICA
                                                     FEDERAL TRADE COMMISSION
                                                             WASHIN(;TON. D      c,   2i'~IW




                        '~_~:s'_,e'-
Human   lt~>,.,urc·",   Ma""gem",,' OlTlcc



                                                                              January 22. 2008


             MEMORANDUM

            T():                       John Sccba
                                       In~;o: ~en4~
            FROM:                      Karen Lcydori. Director
                                       Human Resources Management Office

            SUBJECT:                   Response to Draft FY 2007 Management Letter


           Thank you for the opportunity to review and comment on the section of the draft I'Y 2007
           Management Letter regarding parking benefits, We are delighted that you noticed the
           procedures put into place were designed to correctly calculate taxabtc parking benefits.
           Additionally, we are pleased that you will consider the cornment closed once you confirm. the
           taxable parking benefits arc correctly calculated on the 2007 W-2s.

           Again, 'we appreciate the opportunity to cornment on this letter- If you have any questions
           rdating to our response, please contact me at extension 3633.




                                                               10
                                                                                                         AR OS-OOlA
